   Office of Inspector General
       Audit Report


FTA’S NATIONAL TRANSIT DATABASE: DATA
USED FOR ALLOCATING TRANSIT GRANTS
     WERE GENERALLY SUPPORTED

         Federal Transit Administration


         Report Number: MH-2014-117
        Date Issued: September 16, 2014
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FTA’s National Transit Database:                                         Date:    September 16, 2014
           Data Used for Allocating Transit Grants Were
           Generally Supported
           Federal Transit Administration
           Report Number MH-2014-117

  From:    Thomas E. Yatsco                                                              Reply to
                                                                                         Attn. of:   JA-30
           Assistant Inspector General for
             Surface Transportation Audits

    To:    Federal Transit Administrator

           The Federal Transit Administration (FTA) distributed $4.3 billion to
           179 urbanized areas, as well as to States and territories, through the Urbanized
           Area Formula Program 1 in fiscal year 2014. The program is FTA’s largest grant
           program that provides funding to the Nation’s major transit systems for capital,
           operational, and planning assistance. All recipients and beneficiaries of formula
           grants are required to report operating expense and transit service characteristics
           (such as annual miles traveled or number of passengers) data to FTA through its
           National Transit Database (NTD). FTA uses NTD data as a basis for distributing
           over 63 percent (or over $3 billion) of formula grant funds annually. 2

           We initiated this audit to assess FTA’s oversight of the NTD to determine whether
           recipients of Urbanized Area Formula grants submit complete, accurate, and
           timely data to the NTD. Specifically, we assessed whether (1) the documentation
           provided by transit agencies supported information used to allocate Urbanized
           Area Formula funding and (2) FTA had oversight controls and guidance for transit
           agencies’ NTD reporting.

           To conduct our audit work, we focused on data related to bus operations—the
           category that receives the largest portion of Urbanized Area Formula grant


           1
             This program provides Federal transit funds directly to urbanized areas with a population of 200,000 or more and to
           States for use in urbanized areas with populations between 50,000 and 199,999, based on data from the Bureau of the
           Census. Funding is apportioned based on legislative formulas.
           2
             The remaining 37 percent is distributed based on population and density information from the Bureau of the Census.
                                                                                                                2


funding. 3 We then selected a statistical sample of 15 of 129 transit agencies from
randomly selected urbanized areas that had a total population of 1 million or more.
We reviewed documentation that the 15 sample transit agencies used to support
their NTD data submissions for report years 2008 through 2011. 4 We also
interviewed FTA and transit agency officials, and evaluated FTA’s current actions
to modernize the NTD system and its future plans to oversee the NTD data
validation process. Exhibits A and B provide more details on our scope and
methodology and site visits. We conducted this audit in accordance with generally
accepted Government auditing standards.

RESULTS IN BRIEF
FTA uses two categories of NTD data submissions to allocate Urbanized Area
Formula funds for buses: operating expenses and transit service characteristics. All
15 transit agencies in our sample provided support for data on operating expenses.
For data on transit service characteristics, 4 of the 15 agencies had minor
weaknesses in documentation. We reviewed supporting documentation associated
with thousands of data fields and found only a few instances in which transit
agencies had incomplete documentation for information reported to the NTD. For
example, one agency did not maintain the required supporting documentation for
transportation services purchased from another provider.

FTA has implemented a range of controls to oversee transit agencies’ NTD
reporting, including automated validation checks performed by the NTD system
and manual validation procedures performed by an FTA contractor. However,
FTA does not have a systematic process to ensure consistent follow up on
recurring NTD data problems identified in its annual reviews—allowing some data
inaccuracies to remain unresolved for years. For example, FTA warned one
agency for 3 consecutive years that it had not completed a required independent
review of its data. In addition, FTA no longer examines the collection and
reporting of NTD data in its triennial reviews of transit agencies. By eliminating
NTD-related steps in the triennial review, FTA may be overlooking an opportunity
to mitigate documentation weaknesses.

We are making a series of recommendations to enhance FTA’s oversight controls
and guidance for NTD reporting.




3
  The bus operations category makes up about 67 percent of Urbanized Area Formula funding.
4
  NTD report year submissions include data from agencies whose fiscal years end in June, September, or December of
a given year.
                                                                                  3


BACKGROUND
In 1974, Congress directed the Department of Transportation to establish a system
to collect uniform data on the Nation’s transit systems. This system, now known
as NTD, provides Congress and the transit industry with critical performance and
safety information. FTA uses NTD performance data and data from the Bureau of
the Census to calculate each grantee’s annual apportionment. The majority of this
funding goes through the Urbanized Area Formula Program to the 30 largest
transit systems. Figure 1 outlines FTA’s Urbanized Area Formula grant process.

Figure 1. FTA’s Urbanized Area Formula Grant Process


                Transit agencies report data—such as revenues, expenses, and
                           transit service characteristics—into NTD.




                FTA validates transit agencies’ NTD data using automatic checks
                                and a manual validation process.




                   Using NTD data, FTA runs annual formula calculations to
                    determine the allocation of formula grant funds to the
                                      Urbanized Areas.




                 Transit agencies in each Urbanized Area decide how to divide
                                   the formula grant funding.




Source: OIG summary of FTA grant process
Once transit agencies submit their data to the NTD, an FTA contractor performs
data validation procedures to confirm that the data are complete and do not vary
10 percent more or less from the previous year’s data. The contractor notifies the
transit agency of any data issues discovered during the validation process, which
                                                                                                                    4


the transit agency then explains or corrects. After all issues are addressed, FTA
approves the data and sends a close-out letter to the transit agency.

FTA also requires transit agencies to obtain annual independent auditor reviews of
their financial and transit service characteristics data that are used in the allocation
of formula grant funds before reporting them to the NTD. Transit service
characteristics include information such as passenger miles traveled 5 and vehicle
revenue miles. 6 FTA defines—and the independent auditors and transit agencies
agree to—a specific set of procedures that allow auditors to make assurances about
data collection, supervision, and record retention. These reviews are intended to
assist the transit agencies’ chief executive officers in certifying that the data are
accurate and meet Federal reporting requirements.

In April 2012, the Office of Management and Budget (OMB), DOT’s Chief
Information Officer, and FTA’s Chief Information Officer performed a joint
review of the NTD. According to the review, the NTD relies on antiquated data
collection and dissemination tools and on an inefficient and costly manual
validation process. In response, FTA began development of a new NTD system.
FTA plans for the new system to begin accepting transit agency data by
August 2014.

While we have not conducted previous audit work on the NTD, OIG received a
hotline complaint in 2011 alleging that a transit agency had over-reported its
vehicle revenue miles, resulting in the agency erroneously receiving additional
Federal funds. We reviewed the allegations and referred the matter to FTA
officials, who took action on the issue. (See exhibit C for further details.)

OIG DID NOT IDENTIFY SIGNIFICANT WEAKNESSES IN NTD
DATA, BUT SOME MINOR DOCUMENTATION WEAKNESSES
EXISTED AT 4 OF 15 TRANSIT AGENCIES
For the 15 transit agencies in our statistical sample, we reviewed supporting
documentation associated with thousands of data fields and found only a few
instances of documentation weaknesses. 7 All 15 transit agencies provided support
for operating expenses—one of the two types of data used to allocate Urbanized
Area Formula funding for bus operations. Four of the 15 agencies had minor
documentation weaknesses for their transit service characteristics—the other type
of data used to allocate formula funds.


5
  Passenger miles traveled are the cumulative sum of the distances ridden by each passenger.
6
  Vehicle revenue miles are the miles that vehicles are scheduled to or actually travel while in revenue service.
7
  We reviewed 15 transit agencies’ supporting documentation for 4,065 data fields related to bus operations that could
have an impact on the allocation of Urbanized Area Formula funds.
                                                                                                                  5


All 15 Transit Agencies Had Support for Operating Expense Data
Our review determined that the 15 transit agencies in our sample had support for
their NTD operating expense data—one of the two types of NTD data used to
allocate Urbanized Area Formula funding for bus operations. We also reviewed
each sample agency’s required independent financial audit report 8 to determine the
accuracy of the operating expense data. The independent auditors concluded that
the financial statements were found to accurately reflect the financial conditions at
the agencies we reviewed and were free from material misstatement that could
adversely affect funding allocation.

The NTD divides operating expenses into 15 categories, such as wages, fuel, and
supplies. Agencies must report their day-to-day operating expenses in these
categories for each type of activity performed (vehicle operations, vehicle
maintenance, non-vehicle maintenance, and general administration), as well as for
directly operated transportation and purchased transportation. For the 15 agencies
in our sample, we compared the agencies’ NTD operating expense data with their
supporting documentation. For example, we verified that the Fort Worth
Transportation Authority (the T) in Fort Worth, TX, maintained budget and
accounting information to support over $233 million in operating expenses
reported to the NTD for report years 2008 through 2011.

Four of 15 Transit Agencies Had Minor Documentation Weaknesses
for Transit Service Characteristics Data
For the 15 transit agencies in our sample, we compared over 4,000 NTD data
fields containing transit service characteristics information, such as passenger
miles traveled, with the agencies’ supporting documentation. While the majority
of the transit agencies in our sample provided supporting documentation, we
identified four agencies with minor documentation weaknesses, such as
incomplete documentation for passenger miles traveled. If transit agencies do not
maintain complete supporting documentation for data reported to the NTD, FTA
has less assurance that data are accurate and grant funds have been properly
allocated.

First, the Regional Public Transit Authority (RPTA) in Phoenix, AZ, could not
provide support for some transit service characteristics data it reported to the
NTD. Specifically, RPTA was unable to provide supporting documentation for
passenger miles traveled from 2008 to 2010. 9 In 2008 and 2009, the agency
reported about 203,000 passenger miles traveled per week, and in 2010, the

8
  Transit agencies are required to have independent auditors sample and examine evidence supporting the amounts and
disclosures in the financial statements and provide an opinion based on Title 49 United States Code Section 5307(f).
9
  RPTA provided adequate support for passenger miles traveled in 2011, which was based on an approved sampling
methodology.
                                                                                  6


agency reported about 154,000 passenger miles traveled per week. However,
RPTA’s documentation showed over 7.2 million passenger miles traveled per
week. In addition, RPTA could not provide support for some bus lines on high-
occupancy vehicle (HOV) lanes, which the agency reports as fixed guideway
directional route miles in the NTD. The agency had appropriate support for the
segments of HOV lanes where it was the sole transit operator but could not
provide support for some HOV lane segments it shared with other transit agencies.
RPTA officials were unable to explain the discrepancies in supporting
documentation for passenger miles traveled or the lack of documentation for fixed
guideway directional route miles. FTA did not review the support for these data
fields because the information appeared reasonable and did not vary significantly
from the previous year.

Second, Phoenix Valley Metro did not retain documentation to support the
purchased transportation information it reported to the NTD. As a result, Phoenix
Valley Metro had to request this supporting documentation from its purchased
transportation contractor who maintains this information. Agency officials stated
that they access this information on an as-needed basis—a practice that is contrary
to FTA policy. FTA’s NTD Annual Reporting Manual requires transit agencies to
retain source documents on file and be available for audit for a minimum of
3 years following FTA’s receipt of the NTD annual report.

Finally, two agencies did not provide supporting documentation that would allow
us to replicate the data calculations for certain NTD data fields. The T in Fort
Worth, TX, provided a summary table to document its reported vehicle revenue
miles related to purchased transportation, but the table did not include the sources
or formulas used to calculate the data. Similarly, the Washington Metropolitan
Area Transit Authority (WMATA) in Washington, DC, did not provide detailed
documentation to support its reported fixed guideway directional route miles; the
maps it provided as documentation were illegible. While the numbers provided by
these agencies matched information in the NTD, the lack of documentation
provides FTA with less assurance that the data are accurate.

SOME GAPS EXIST IN FTA’S OVERSIGHT CONTROLS AND
GUIDANCE FOR NTD REPORTING
FTA has a range of controls in place to oversee transit agencies’ NTD reporting,
including automated validation checks performed by the NTD system and manual
validation procedures performed by the NTD contractor. However, FTA lacks a
systematic process for resolving recurring problems identified in NTD close-out
letters and independent auditor reviews. In addition, FTA’s triennial review
process—a tool for examining grantee performance and adherence to FTA
                                                                                                                  7


requirements and policies—does not assess the accuracy of transit agencies’ data
reporting.

FTA Has Data Validation Controls but Does Not Have a Process for
Consistent Follow Up on Problems Identified in Annual Reviews
The NTD has more than 700 automated validation checks used to validate the
accuracy of transit agencies’ NTD annual reports. 10 NTD’s contractor staff also
conducts manual data validation reviews and works with transit agencies to
resolve data issues. At the end of each annual reporting cycle, FTA issues close-
out letters to transit agencies to document FTA’s acceptance of the data and to
identify any issues with transit agencies’ data collection methods or data accuracy
that need correction.

However, FTA does not have a systematic process for either NTD contractor staff
or FTA officials to follow up on recurring issues identified in previous years’
close-out letters. Without such a process, FTA cannot ensure that transit agencies
take appropriate actions to correct previously identified problems—allowing some
data inaccuracies to remain unresolved in the NTD for years. During our review,
we identified the following recurring data problems:

• From 2008 to 2010, the T in Fort Worth, TX, reported data with significant
  variances in its NTD annual reports, even though NTD contractors had noted
  these problems during their annual reviews. For example, the agency’s vehicle
  revenue miles increased by over 140 percent in 1 year—well beyond the
  10-percent variance threshold specified in the NTD data validation procedures.
  In 2009, officials from the T responded to the data accuracy concerns by
  stating that the vendor had provided incorrect data. FTA issued a close-out
  letter that accepted this explanation for the variances—on the condition that the
  errors would be corrected in the following year. However, the T continued to
  report data with significant variances through 2010. 11 Without follow up on
  data variances, FTA has less assurance that grantees are addressing data
  inaccuracies in a timely manner and that over- or under-reporting has not
  occurred.

• From 2009 to 2011, FTA issued three close-out letters stating that the T had
  failed to certify whether it obtained required independent auditor reviews of its
  financial and service data. FTA warned that this issue could impact the
  agency’s annual formula grant funding, but the issue remained uncorrected for
  3 years. Moreover, the T was delayed in completing the independent auditor


10
   For example, if an agency’s reported cost per passenger mile is 10 percent more or less than the previous year—
which is considered a significant variance—the system marks the data as needing correction or further justification.
11
   There were no significant variances in data fields that could impact formula funding between 2010 and 2011.
                                                                                                                       8


     reviews and still has not updated the NTD to reflect that the independent
     auditor reviews are complete.

• The Bee-Line System in Westchester County, NY, hires a contractor to operate
  its motorbus service. However, from 2008 to 2011, Bee-Line officials
  incorrectly reported to the NTD that the bus service was directly operated.
  Although NTD validation analyst identified the error in 2008, it was not
  corrected until 2012.

Additionally, the guidance for validating NTD data is contained in the Point-by-
Point Reference Manual that a prior NTD contractor developed. FTA and the
current contractor continue to use this manual to guide the annual data validation
process. However, FTA has not formally approved the manual as an official
guidance document. This is contrary to OMB Circular A-130 12 and the
Government Accountability Office’s Internal Control Standards, which state that
Federal agencies should properly document policies and transactions.

FTA’s Triennial Reviews of Transit Agencies Lack an Assessment of
NTD Data Accuracy
During our audit, FTA officials stated that its triennial reviews provide a core
oversight control designed to ensure the completeness and accuracy of data
reported to the NTD. However, FTA’s current triennial review guidance 13 for
fiscal year 2014 does not include any questions directly related to NTD data
accuracy. Every 3 years, FTA regional staff, with the assistance of contractors,
evaluates recipients of Urbanized Area Formula funding on a range of topics to
assess whether they comply with FTA requirements and policies. These triennial
reviews include site visits to transit agencies and reviews of critical
documentation.

While FTA’s 2014 triennial review guidance does not include any questions
directly related to NTD data accuracy, its 2013 triennial review guidance included
limited NTD-related questions. Specifically, the 2013 triennial review guidance
included five questions related to the NTD, focusing on data collection and
reporting. For example, the 2013 review process included an assessment of NTD
data completeness, which involved comparing NTD expense report data to transit
agencies’ financial statements. The 2013 reviews also included evaluations of
whether transit agencies have documented procedures for recording unlinked
passenger trips 14 and passenger miles data, which are both reported to the NTD.

12
   OMB Circular A-130, Management of Federal Information Resources, Nov. 2000.
13
   FTA’s triennial review guide can change from year to year. The guide provides the questions to ask grantees, a list of
grantees’ documents to examine, and a method for determining whether grantees are meeting Federal requirements.
14
   Unlinked passenger trips mean the number of passengers who board public transportation vehicles. Passengers are
counted each time they board vehicles no matter how many vehicles they use to travel to their destination.
                                                                                  9


These NTD-related review areas were limited and did not include, for example, an
assessment of a targeted sample of supporting documentation for NTD data fields,
such as vehicle revenue miles. Further, FTA’s past and current triennial review
guides reference NTD data as a source of information for verifying transit
agencies’ data, such as their maintenance expenses. Therefore, accurate NTD data
contribute to effective triennial reviews.

According to FTA officials, the NTD review area was removed from the 2014
triennial review guidance because it produced few findings among FTA grantees
and was duplicative of the annual NTD data validation process. While we do not
take issue with the removal of prior NTD-related questions, our review indicates
opportunities to include new NTD-related steps in the triennial review to address
issues we identified and support current initiatives. Unlike the NTD data
validation process, the triennial review provides an opportunity for FTA to
examine supporting documents, speak with transit agency officials, and evaluate
transit agencies’ processes in person. As a result, FTA is not using its triennial
review process as a tool to mitigate NTD data issues, such as the ones we
identified during this review.

CONCLUSION
FTA relies on NTD data to distribute billions of Federal dollars to transit agencies
for capital, operational, and planning assistance. FTA has oversight controls in
place to help ensure NTD data accuracy and appropriate allocation of Urbanized
Area Formula grant funds. However, FTA can do more to follow up with transit
agencies that have problems reporting NTD data and to enhance its oversight
procedures. FTA’s ongoing efforts to modernize the NTD system provide an
opportunity to re-examine its NTD procedures and requirements. By taking action
now, FTA can gain greater assurance that the NTD appropriately distributes
Federal grant funds and maximizes its ability to provide critical industry data to
transit agencies and Congress.

RECOMMENDATIONS
We recommend that the Federal Transit Administrator:

1. Establish a process requiring follow up on recurring problems with transit
   agency data, including outstanding issues identified in prior years’ close-out
   letters.

2. Establish FTA standard operating procedures for the NTD data validation
   process that are signed and approved by FTA.
                                                                                10


3. Revise triennial review procedures to include an assessment of transit
   agencies’ supporting documentation and controls for NTD data used in the
   Urbanized Area Formula Program.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FTA on July 15, 2014, and received its
response on August 21, 2014, which is included in its entirety as an appendix to
this report. FTA concurred with all three of our recommendations and provided
appropriate planned actions and timeframes for completion. Accordingly, we
consider all three recommendations resolved but open pending completion of
planned actions.

ACTIONS REQUIRED
FTA’s planned actions and timeframes for addressing our recommendations are
responsive. We consider recommendations 1 through 3 resolved but open pending
completion of the planned actions. We appreciate the courtesies and cooperation
of FTA representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-5630, or Gary Middleton, Program Director, at
(202) 366-0625.

                                        #
cc:   FTA Audit Liaison (TBP)
      DOT Audit Liaison (M-1)
                                                                                                            11



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from June 2012 through July 2014 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

To evaluate FTA’s oversight of the NTD, we analyzed (1) documentation
provided by transit agencies to support information used to allocate Urbanized
Area Formula funding and (2) FTA’s oversight controls and guidance to transit
agencies reporting to the NTD. Specifically, we focused on data related to
motorbus operations, which receives the largest portion of Urbanized Area
Formula grant funding, by selecting a two-stage statistical sample. For the first
stage of the statistical sampling process, the OIG statistician selected a statistical
sample of 10 urbanized areas from the universe of 28 urbanized areas with
probability proportional to the amount of apportionment received. 15 For the second
stage, the audit team compiled a list of all public transit agencies located within
the sample of 10 urbanized areas. The OIG statistician then selected 2 transit
agencies from each of the 10 urbanized areas with probability proportional to the
number of unlinked passenger trips, resulting in a statistical sample of 20 out of
129 transit agencies. Out of the 20 transit agencies, 4 were selected twice due to
the “with replacement” sample design, and 1 provided only rail service. As a
result, the statistical sample was ultimately comprised of 15 transit agencies with
motorbus operations. (See exhibit B for a list of the 15 transit agencies in our
sample.)

To verify documentation provided by the transit agencies, we identified key NTD
financial and transit service forms providing specific data fields used to calculate
the apportionment formula. The transit agencies in our sample provided
supporting documentation for data submitted to the NTD on these forms for report
years 2008 through 2011. Our audit compared the data fields on the forms with the
transit agencies’ corresponding supporting documentation to identify variances in
the data reported to the NTD (see exhibit D for key data fields reviewed). We also
reviewed each sample transit agency’s independent financial audit report.

We analyzed key documents related to the Urbanized Area Formula Program
(Section 5307 Program) and the NTD to gain an understanding of the NTD
system, and to assess FTA’s oversight of the system and the transit agencies’
reporting. We reviewed various reports accessed through the NTD system, such as

15
     Out of 600 total urbanized areas, we identified 28 that had a total population of 1 million or more.


Exhibit A. Scope and Methodology
                                                                                12


operating expense and transit service characteristic reports. We also reviewed
NTD manuals and guidance, documentation related to FTA’s Section 5307 and
Section 5311 (Formula Grants for Other Than Urbanized Areas) programs,
apportionment tables, NTD oversight documents, planning documents, meeting
minutes, NTD information technology (IT) documentation and contracts, and
independent audit reports.

We interviewed FTA officials at FTA Headquarters in Washington, DC; FTA’s
Washington, DC, Metropolitan Office; and at regional offices in Atlanta, GA, and
Chicago, IL. We also interviewed the previous NTD contractor and the current IT
and validation contractors. In addition, we met with transit agencies’ independent
auditors. Further, we reviewed transit agencies’ agreed-upon-procedures reports
prepared by independent auditors.

Finally, we conducted site visits at 3 of the 15 transit agencies in our sample and
held teleconferences and discussions with the other 12 transit agencies. We also
met with American Public Transportation Association officials and contacted the
Research and Innovative Technology Administration-Bureau of Transportation
Statistics. (See exhibit B for a list of the sample transit agencies and other
organizations we visited or contacted.)




Exhibit A. Scope and Methodology
                                                                                     13



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

FTA

Offices                                                        Location

FTA Headquarters                                               Washington, DC

FTA Region 3 Officials in                                      Washington, DC
Washington, DC, Metropolitan
Office

FTA Region 4                                                   Atlanta, GA

FTA Region 5                                                   Chicago, IL




FTA NTD CONTRACTORS

Organization                   Type                            Location

Savantage Solutions            Previous Contractor             Rockville, MD

ActioNet, Inc.                 Current IT Contractor           Fairfax, VA

Boyd, Caton and Grant          Current Validation Contractor   Charlottesville, VA
Transportation




INDEPENDENT AUDITORS

Organization                   Type                            Location

CliftonLarsonAllen, LLP        WMATA independent auditor       Washington, DC

Crowe Horwath, LLP             CTA independent auditor         Chicago, IL

Cherry, Bekaert & Holland,     MARTA independent auditor       Atlanta, GA
LLP                            for 2008–2010

Mauldin and Jenkins Certified MARTA independent auditor        Atlanta, GA
Public Accountants, LLC       for 2011




Exhibit B. Activities Visited or Contacted
                                                                                       14


INDUSTRY ASSOCIATIONS AND OTHER AGENCIES

Organization                    Type                                Location

American Public                 Industry Association                Washington, DC
Transportation Association

Research and Innovative         Government Agency                   Washington, DC
Technology Administration-
Bureau of Transportation
Statistics




PUBLIC TRANSIT AGENCIES SAMPLED

Organization                    Type of analysis performed          Location

Washington Metropolitan Area Site visit; financial and transit      Washington, DC
Transit Authority (WMATA)    service data analyzed

Metropolitan Atlanta Rapid      Site visit; financial and transit   Atlanta, GA
Transit Authority (MARTA)       service data analyzed

Chicago Transit Authority       Site visit; financial and transit   Chicago, IL
(CTA)                           service data analyzed

Massachusetts Bay               Financial and transit service       Boston, MA
Transportation Authority        data analyzed
(MBTA)

MTA New York City Transit       Financial and transit service       New York, NY
(NYCT)                          data analyzed

Westchester County Bee-Line Financial and transit service           Mount Vernon, NY
System (The Bee Line)       data analyzed

Southeastern Pennsylvania       Financial and transit service       Philadelphia, PA
Transportation Authority        data analyzed
(SEPTA)

Dallas Area Rapid Transit       Financial and transit service       Dallas, TX
(DART)                          data analyzed

Fort Worth Transportation       Financial and transit service       Fort Worth, TX
Authority (The T)               data analyzed

City of Phoenix Public Transit Financial and transit service        Phoenix, AZ
Department: Valley Metro       data analyzed
(Valley Metro)




Exhibit B. Activities Visited or Contacted
                                                                                    15


Regional Public                 Financial and transit service   Phoenix, AZ
Transportation Authority:       data analyzed
Valley Metro (RPTA)

Los Angeles County              Financial and transit service   Los Angeles, CA
Metropolitan Transportation     data analyzed
Authority (LACMTA)

Long Beach Transit (LBT)        Financial and transit service   Long Beach, CA
                                data analyzed

Alameda-Contra Costa            Financial and transit service   Oakland, CA
Transit District (AC Transit)   data analyzed

San Francisco Municipal         Financial and transit service   San Francisco, CA
Railway                         data analyzed




Exhibit B. Activities Visited or Contacted
                                                                                          16



EXHIBIT C. FTA ACTIONS REGARDING OIG HOTLINE
COMPLAINT ON CHICAGO TRANSIT AUTHORITY’S REPORTING
OF REVENUE MILES
The Chicago Transit Authority (CTA), the second largest transit agency in the
United States, 16 allowed buses to pick up passengers at any point on a service
route, regardless of whether it was a bus’s established route. A 2007 Illinois State
audit found that the Chicago Transit Authority (CTA) incorrectly reported these
so-called deadhead 17 hours and miles as revenue. During the course of the Illinois
State audit, CTA officials asked FTA staff to review their method of reporting
revenue service and deadhead miles, and FTA allowed CTA to continue reporting
in the same manner. Subsequently, a 2011 OIG hotline complaint alleged that
CTA overstated its vehicle revenue miles and hours in the NTD. In response, FTA
directed CTA to stop including the miles that buses travel from the bus depot to
the established route. Based on FTA’s actions, OIG closed the complaint in
June 2012.




16
     CTA is the second largest transit agency ranked by unlinked passenger trips.
17
     Deadhead means hours and miles that a vehicle travels when not in revenue service.

Exhibit C. FTA Actions Regarding OIG Hotline Complaint on Chicago Transit
Authority’s Reporting of Revenue Miles
                                                                              17




EXHIBIT D. KEY NTD DATA FIELDS REVIEWED

FINANCIAL DATA

Data Type                    NTD Forms            5307 Formula Abbreviation

Operating Expenses/Costs     F-30, F-40, FFA-10   OC




SERVICE DATA

Data Type                    NTD Forms            5307 Formula Abbreviation

Bus Passenger Miles          S-10, FFA-10         BPMT
Traveled

Bus Vehicle Revenue Miles    S-10, FFA-10         BVRM

Fixed Guideway Directional   S-10, S-20, FFA-10   FGDRM
Route Miles




ADDITIONAL SERVICE DATA NOT IN FORMULA CALCULATION

Data Type                    NTD Forms            Abbreviation

Vehicle Revenue Hours        S-10                 VRH

Unlinked Passenger Trips     S-10, FFA-10         UPT




Exhibit D. Key NTD Data Fields Reviewed
                                                                     18



EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                           Title

Gary Middleton                                 Program Director

Krystal Patrick                                Project Manager

Jennifer Hoffman                               Senior Analyst

Jamila Mammadova                               Analyst

Michelle Starkey                               Auditor

Shirell Butcher                                Auditor

Petra Swartzlander                             Senior Statistician

Megha Joshipura                                Statistician

William Savage                                 IT Specialist

Seth Kaufman                                   Senior Counsel

Christina Lee                                  Writer-Editor




Exhibit E. Major Contributors to This Report
                                                                                                         19



  APPENDIX. AGENCY COMMENTS

                                                                    Memorandum
  U.S. Department of
  Transportation
  Office of the Secretary
  of Transportation

Subject:    INFORMATION: Management Comments -                      Date:   [Note: Date listed below.]
            Office of Inspector General (OIG) Draft Report on
            the National Transit Database
 From:      Therese McMillan
            Acting Administrator
            Federal Transit Administration
    To:     Thomas E. Yatsco
            Assistant Inspector General for Surface Transportation Audits

  Every year the Federal Transit Administration (FTA) collects service, financial, and safety data
  from grantee agencies in its National Transit Database (NTD). This data is used annually to
  apportion over $6 billion in formula grant funds. The NTD has more than 700 automated
  validation checks to ensure the accuracy of the reported data. This process is managed by
  dedicated NTD validation staff working with transit agencies to resolve data issues.
  To improve our processes:
          • FTA will establish a process to follow-up on recurring problems with transit agency data,
            including outstanding issues identified in prior years’ agency close-out letters. This will be
            formally documented in NTD standard operating procedures (SOPs).
          • FTA will approve the updated NTD SOPs for the data validation process and for the new
            procedures described below.
          • FTA will institute an annual process for assessing a sample of transit agencies’ supporting
            documentation and controls for NTD data used to apportion formula funds. This process
            will be implemented and documented as part of the NTD SOPs.
  Based upon our review of the draft report, we agree to implement each of the OIG
  recommendations. Recommendations 1 and 2 will be implemented by February 27, 2015.
  Recommendation 3 will be implemented by September 30, 2015. This date is consistent with the
  annual NTD reporting cycle.

  We appreciate the opportunity to offer additional perspectives on the OIG draft report. Please
  contact Uchenna Okezie, the FTA Audit Liaison, at 202-366-1591 with any questions or if the
  OIG would like to obtain additional details about these comments.



    X
    Therese W. McMillan
    Acting Administrator


  Appendix. Agency Comments
